No. 20-843

 

In THE
Supreme Court of the United States

NEw YORK STATE RIFLE & PISTOL ASSOCIATION, ef al.,

Petitioners,
v.

KEVIN P. BRUEN, et al.,
Respondents.

ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

BRIEF FOR THE STATES OF CALIFORNIA, CONNECTICUT,
DELAWARE, ILLINOIS, MAINE, MARYLAND, MASSACHU-
SETTS, MICHIGAN, MINNESOTA, NEW JERSEY, NEW MEx-
ICO, OREGON, PENNSYLVANIA, RHODE ISLAND,
‘VERMONT, VIRGINIA, WASHINGTON, AND WISCONSIN,
AND THE DISTRICT OF COLUMBIA AS AMICI CURIAE IN
SUPPORT OF RESPONDENTS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,985 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 21, 2021.

 

Colin Casey Hogar
Wilson-Epes Printing Co., Inc.
